APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2020-1189
————
INFINITY COMPUTER PRODUCTS, INC.,
Plaintiff-Appellant,
v.
OKI DATA AMERICAS, INC.,
Defendant- Appellee.
————
Appeal from the United States District Court
for the District of Delaware in
No. 1:18-cv-00463-LPS,
Chief Judge Leonard P. Stark.
————
Decided: February 10, 2021
————
Before PROST, Chief Judge, CLEVENGER, and
TARANTO, Circuit Judges.
————
OPINION
————
PROST, Chief Judge.
Infinity Computer Products, Inc. (“Infinity”) appeals
the U.S. District Court for the District of Delaware’s
final judgment of invalidity. We agree with the district

2a
court that the patent claims asserted by Infinity
against Oki Data Americas, Inc. (“Oki Data”) are
indefinite. We therefore affirm.
BACKGROUND
I
Infinity sued Oki Data for infringing four related
patents: U.S. Patent Nos. 6,894,811 (“the ’811 patent”),
7,489,423, 8,040,574, and 8,294,915.1 The patents
share a specification and involve using a fax machine
as a printer or scanner for a personal computer. The
indefiniteness issues in this case revolve around the
connection between the fax machine and the computer,
termed a “passive link.” The parties agree that claim 1
of the ’811 patent is representative. That claim states:
1. A method of creating a scanning capability from
a facsimile machine to a computer, with scanned
image digital data signals transmitted through a
bi-directional direct connection via a passive link
between the facsimile machine and the computer,
comprising the steps of:
by-passing or isolating the facsimile machine and
the computer from the public network telephone
line;
coupling the facsimile machine to the computer;
conditioning the computer to receive digital
facsimile signals representing data on a scanned
document; and
conditioning the facsimile machine to transmit
digital signals representing data on a scanned
1 Infinity asserted claims 1–2, 4, 6–7, and 18–20 of the ’811
patent; claims 1–4 and 6 of U.S. Patent No. 7,489,423; claims 1–
2, 4–5, and 7–8 of U.S. Patent No. 8,040,574; and claims 1, 6–9,
and 14–15 of U.S. Patent No. 8,294,915.

3a
document to the computer, said computer being
equipped with unmodified standard protocol
send/receive driver communications software
enabling the reception of scanned image signals
from the facsimile machine, said transmitted
digital facsimile signals being received directly
into the computer through the bi-directional
direct connection via the passive link, thereafter,
said computer processing the received digital
facsimile signals of the scanned document as
needed.
’811 patent claim 1 (emphases added).
The ’811 patent is a continuation-in-part of U.S.
Patent App. No. 08/226,278 (“the ’278 application”),
which itself ultimately issued as U.S. Patent No.
5,530,558. The “principal object” of the claimed
invention is “to provide a circuit for interfacing a PC
and a facsimile to enable the facsimile to be utilized as
a scanner or a printer for a PC and to accomplish all of
the objectives of a scanner or a printer in a simple
straightforward manner through the use of a circuit of
highly simplified design and low cost.” ’811 patent col.
1 ll. 39–45; see id. Fig. 1 (circuit diagram).
Figures 2a–e of the ’811 patent depict this circuit
relative to a computer and a fax machine. They also
depict “facsimile modem circuitry,” which “may be
either internal or external” to the computer. Id. at col.
6 ll. 3–5. Figures 2b–d, for example, depict a fax
machine connected to a computer via an RJ-11 cable,
with fax modem circuitry located internal to the
computer.

4a

Fig. 2b
Id. Fig. 2b.
Figures 2f–h do not show fax modem circuitry
interposed between the fax machine and the computer.
Nor do they depict it as internal to the computer. The
arrangement of Figure 2f, for example, “is used with
PC’s which do not have a fax modem installed.” Id. at
col. 6 ll. 62–63. This figure depicts a fax machine
connected to a computer via an RS-232 cable, with
both the circuit of the invention and the fax modem
circuitry residing in the fax machine.

5a

Fig. 2f.
Id. Fig. 2f. Unlike Figures 2a–e, Figures 2f–h were not
disclosed in the parent ’278 application.
II
The term “passive link” does not appear in the ’811
patent specification. Nor does it appear in the parent
’278 application. Rather, Infinity first introduced the
term during prosecution of the ’811 patent to
distinguish an anticipating prior-art reference—U.S.
Patent No. 5,452,106 (“Perkins”). This reference, the
patent examiner noted, discloses using a fax machine
as a scanner or printer for a computer. J.A. 2129–30.
Infinity’s initial attempts at distinguishing Perkins
were unsuccessful. First, Infinity amended the claim
to recite (among other things) data transfer “between
the facsimile machine and the computer” that occurs
“without interruption.” J.A. 1227. Infinity also
distinguished Perkins at length in accompanying
remarks, on the ground that Perkins includes an
intervening component—“device 3”—between the fax

6a
machine and the computer. J.A. 1233–36. As Infinity
noted, one function of device 3 was to serve as a fax
modem. J.A. 1233.
Infinity asserted that, “[u]nlike Perkins,” the
claimed invention permits “the uninterrupted transfer
of scanning or printing signals between the facsimile
and the computer without the use of intervening
circuitry, and does not intercept the signals for
demodulation as Perkins does with device 3.” J.A.
1234. Later in the same response, Infinity reiterated
that its invention “does not require a microprocessor
or any circuitry or software to interrupt and intercept
the signals which occur in transmissions between a fax
machine and a computer.” J.A. 1235.
The examiner was not persuaded. Perkins’s device 3,
the examiner countered, “may be provided on a card
for location in the computer.” J.A. 3443. This internalcard embodiment, the examiner continued, represents
an “uninterrupted” connection between the fax
machine and the computer that defeats Infinity’s
distinction. J.A. 3443.
Infinity responded with further amendments and
remarks in several subsequent responses, including by
repeating the “intervening circuitry” distinction.
Eventually, Infinity overcame Perkins by amending
the claim to require a “passive link” between the fax
machine and the computer and by using this new term
as a hook for its intervening-circuitry distinction:
The Applicant creates a passive link between the
facsimile machine and the computer in order to
accommodate the signal transfer for printing or
scanning. Therefore, the Applicant does not
require any intervening apparatus as does
Perkins. The applicant therefore believes[ ]

7a
Perkins did not anticipate the methods used by
the Applicant.
J.A. 2196 (emphases added). In support, Infinity
emphasized that Perkins requires an intervening
modem:
Perkins’[s] device 3 or card design requires a
modem to be integrated into it in order to transfer
signals for scanning or printing as part of his
computer and facsimile transceiver interface. In
contrast, the Applicant can transfer digital
signals between the facsimile transceiver and the
computer without the need for a modem at the
computer interface.
J.A. 2197. In doing so, Infinity relied on its more recent
Figures 2f–h, which do not depict a fax modem
between the fax machine and the computer. J.A. 2198
(“[A] modem is not required at the computer in Figures
2F, 2G, and 2H.”).
Infinity also reprised its argument that Perkins’s
device 3 is intervening circuitry between the fax
machine and the computer—even when placed
internally. This is so, Infinity contended, because
device 3 intercepts data before it reaches the I/O bus
of the computer:
In [Perkins’s] internal configuration, facsimile
transmission data never enters the computer I/O
Bus until after it is processed by the device 3 card
circuits into digital data, thereafter, the flow of
data transfers to the I/O Bus and is processed by
the computer circuitry.
It is therefore evident that Perkins’[s] device 3
intercepts the flow of data before it is transmitted
to the computer circuits, in order to convert the
analog signal into a digital signal format

8a
acceptable to the computer. Hence, even though
circuitry of device 3 is placed in a card within the
box containing the computer it should be regarded
as a peripheral device to the computer which
processes data before it is transmitted to the I/O
bus of the computer.
J.A. 2201 (emphasis added).
Unlike Perkins’s internal-card embodiment, Infinity
argued, the claimed “passive link” conveys data
directly to the I/O bus of the computer without
intervening circuitry:
Contrary to the above, when the Applicant
transfers digital data from the facsimile
transceiver through a passive link for scanning to
the computer, the non-intercepted data enters
through the RS 232 type connector port of the
computer and passes directly to the I/O Bus and
is processed by the receiving circuits (i.e., UART,
CPU) of the computer, providing a true non
intercepted digital signal between the facsimile
transceiver and the computer.
In effect, the Applicant’s method does not use
intermediary peripheral circuitry for signal
interception, resulting in demodulation or
modulation which is required by Perkins with his
card or device 3.
J.A. 2201 (emphases added). This time, Infinity’s
argument was successful, and the ’811 patent issued
after further prosecution.
III
The ’811 patent was later the subject of three ex
parte reexaminations. In one of these, Infinity sought
to antedate a reference, U.S. Patent No. 5,900,947
(“Kenmochi”), by arguing that claim 1 of the ’811

9a
patent is entitled to the priority date of the ’278
application. Specifically, as Infinity recounted in
summarizing an examiner interview, Infinity asserted
that “the RJ-11 telephone cable shown in Figs. 2b, 2c
and 2d of the [’278 application] is the ‘direct’ and
‘passive link.’ ” J.A. 2500. Infinity made this argument
even though each of Figures 2b–d depicts internal fax
modem circuitry like Perkins’s internal-card
embodiment.
Likewise, in its written response to the Kenmochi
rejection, Infinity argued that “the RJ 11 telephone
cable and use thereof in communicating data between
the fax machine 30 and the PC computer 40 meets
the … definition of ‘passive link.’ ” J.A. 2377–78. “For
example, with respect to Figures 2b–2d” of the ’278
application, Infinity argued, “the RJ 11 telephone
cable connects the fax machine 30 to the PC computer
40 such that there is no intervening apparatus or
signal interception by a processing element or any
active component, along the path of an unbroken direct
connection between the PC and the facsimile
machine.” J.A. 2378 (internal quotation marks
omitted). Along the way, Infinity acknowledged that
“[t]he term ‘passive link’ was first introduced in an
amendment … to distinguish the invention of the [’811
patent] from Perkins.” J.A. 2377.
Infinity also submitted an expert declaration during
the reexamination. Without addressing the prior
distinction of Perkins, Infinity’s expert witness
likewise opined that Figures 2b–d of the ’278
application disclose a “passive link.” J.A. 1980. He
added that “the use of a modulation procedure within
the PC and facsimile machine as shown in the figures
does not insert an intervening apparatus or processing
element along the path, e.g. on the cable between the
PC’s RJ-11 and the fax’s RJ-11.” J.A. 1980.

10a
The examiner accepted Infinity’s argument without
expressly addressing Infinity’s prior distinction of
Perkins, J.A. 2525–29, despite recognizing in an
interview summary that “the ‘passive link’ limitation”
was a basis on which Infinity overcame “rejections
based on Perkins” during prosecution. J.A. 1992. After
further proceedings, including an appeal to the Patent
Trial and Appeal Board (“Board”), a reexamination
certificate ultimately issued noting the patentability of
the claims.
IV
In this case, Oki Data argued before the district
court that the terms “passive link” and “computer” are
indefinite because Infinity took conflicting positions on
the endpoint of the “passive link” during prosecution.
In particular, Oki Data argued that Infinity took one
position to overcome Perkins and a different position
to antedate Kenmochi—creating uncertainty as to
where the “passive link” ends and where the
“computer” begins. At the Markman hearing, Infinity
acknowledged that one of ordinary skill would need to
be reasonably certain where the passive link ends and
the computer begins in order for the claims to be
definite. Infinity Comput. Prods., Inc. v. Oki Data
Ams., Inc., No. 18-463, 2019 WL 2422597, at *4 (D.
Del. June 10, 2019), reconsideration denied, 2019 WL
5213250 (D. Del. Oct. 16, 2019).2
The district court agreed with Oki Data that
“passive link” and “computer” are indefinite. First, the
court explained that Infinity had taken materially
inconsistent positions regarding the extent of the
2 Markman Tr. 61:19–22, J.A. 3855 (The Court: “In order for
these claims to be definite, does one of skill in the art have to be
reasonably certain where the passive link ends and the computer
begins?” Mr. DiNovo: “Yes.”).

11a
claimed “passive link”—specifically, whether it ends at
the I/O bus inside the computer (as argued to
distinguish Perkins) or merely at the computer’s port
(as argued to antedate Kenmochi). Id. at *4–6.
Therefore, the court concluded, the endpoint of
“passive link” is not reasonably certain and the term is
indefinite. Id.
Second, the court reasoned that because there is not
reasonable certainty about where the “passive link”
ends, there also cannot be reasonable certainty about
where the “computer” begins. Id. at *6. “Specifically,
where the passive link ends at a computer port, the
computer begins at the port, and where the passive
link ends at the I/O bus, the computer begins at the
I/O bus.” Id. The court denied Infinity’s motion for
reconsideration and entered a final judgment of
invalidity. Infinity, 2019 WL 5213250, at *1–2; J.A. 22.
This appeal followed. We have jurisdiction under 28
U.S.C. § 1295(a)(1).
DISCUSSION
I
“The Patent Act requires that a patent specification
‘conclude with one or more claims particularly
pointing out and distinctly claiming the subject matter
which the applicant regards as [the] invention.’ ”
Nautilus, Inc. v. Biosig Instruments, Inc., 572 U.S. 898,
901, 134 S.Ct. 2120, 189 L.Ed.2d 37 (2014) (alteration
in original) (quoting 35 U.S.C. § 112, ¶ 2 (2006)). “[A]
patent is invalid for indefiniteness if its claims, read in
light of the specification delineating the patent, and
the prosecution history, fail to inform, with reasonable
certainty, those skilled in the art about the scope of the
invention.” Id. This standard strikes the “delicate
balance” of accounting for both “the inherent
limitations of language” and the need to “afford clear

12a
notice of what is claimed, thereby apprising the public
of what is still open to them.” Id. at 909, 134 S.Ct. 2120
(cleaned up). It also serves as a “meaningful … check”
against “foster[ing] [an] innovation-discouraging ‘zone
of uncertainty.’ ” Id. at 910–11, 134 S.Ct. 2120 (quoting
United Carbon Co. v. Binney & Smith Co., 317 U.S.
228, 236, 63 S.Ct. 165, 87 L.Ed. 232 (1942)).
Indefiniteness is ultimately a question of law that
we review de novo. Teva Pharms. USA, Inc. v. Sandoz,
Inc., 789 F.3d 1335, 1341 (Fed. Cir. 2015). “[W]e look
to the patent record—the claims, specification, and
prosecution history—to ascertain if they convey to one
of skill in the art with reasonable certainty the scope
of the invention claimed.” Id. “The prosecution history
‘consists of the complete record of the proceedings
before
the
PTO,’ ”
including
reexamination
proceedings. InTouch Techs., Inc. v. VGO Commc’ns,
Inc., 751 F.3d 1327, 1341 (Fed. Cir. 2014) (quoting
Phillips v. AWH Corp., 415 F.3d 1303, 1317 (Fed. Cir.
2005) (en banc)); see also Krippelz v. Ford Motor Co.,
667 F.3d 1261, 1266 (Fed. Cir. 2012) (“A patentee’s
statements during reexamination can be considered
during claim construction.”). And “[a] statement made
during prosecution of related patents may be properly
considered in construing a term common to those
patents.” Teva, 789 F.3d at 1343.
Indefiniteness may result from inconsistent
prosecution history statements where the claim
language and specification on their own leave an
uncertainty that, if unresolved, would produce
indefiniteness. In Teva, for example, we concluded
that the term “molecular weight” was indefinite. The
parties had agreed that the term could refer to any of
three different measures that are calculated in
different ways and that typically yield materially
different results. Id. at 1341. Neither the claim

13a
language nor the specification indicated which
measure the claims covered. Id. The prosecution
history did not answer the question. To the contrary,
in the prosecution histories of two continuation
applications with nearly identical specifications, the
patentee defined the term in two different ways—in
each case to successfully overcome a rejection. Id. at
1343–45. On that record, we concluded that the term
was indefinite. Id. at 1345. The record here is similar.
As with the term “molecular weight” in Teva, the claim
language and specification do not provide reasonable
certainty about a crucial aspect of “passive link,”
namely, where it ends. And far from resolving the
uncertainty during prosecution, Infinity took
conflicting positions during prosecution regarding the
scope of “passive link.”
At first, Infinity argued that a “passive link” does not
allow for intervening circuitry, like a fax modem,
between the fax machine and the I/O bus of the
computer. At the time, Infinity asserted that even
circuitry “within the box containing the computer,”
like Perkins’s device 3, “should be regarded as a
peripheral device to the computer which processes
data before it is transmitted to the I/O bus of the
computer.” J.A. 2201. Unlike Perkins, Infinity argued,
data transmitted “through a passive link … passes
directly to the I/O Bus and is processed by the
receiving circuits … of the computer.” J.A. 2201. On its
own, this position would lead one of ordinary skill to
believe a passive link does not end at the computer’s
port but rather reaches to the I/O bus of the
computer—especially “[g]iven the role of the statement
in gaining allowance of the claims,” Teva, 789 F.3d at
1344.
Later,
Infinity
reversed
course.
During
reexamination, Infinity contended that the passive

14a
link was coextensive with the RJ-11 cable in the
embodiments of Figures 2b–d—embodiments which do
include intervening circuitry (such as fax modems)
between the fax machine and the computer’s I/O bus—
indeed, within the “box containing the computer” like
Perkins’s device 3. On its own, this argument would
lead one of ordinary skill to believe a “passive link”
ends at the computer’s port.
The public-notice function of a patent and its
prosecution history requires that we hold patentees to
what they declare during prosecution. Teva, 789 F.3d
at 1344. But holding Infinity to both positions results
in a flat contradiction, providing no notice to the public
of “what is still open to them.” Nautilus, 572 U.S. at
909, 134 S.Ct. 2120. Here, one of ordinary skill cannot
determine with any reasonable certainty, for instance,
whether or not the claims cover arrangements like the
internal-card embodiment of Perkins and the internalmodem embodiments of Figures 2b–d. On the record
before us, therefore, we agree with the district court
that the intrinsic evidence leaves an ordinarily skilled
artisan without reasonable certainty as to where the
passive link ends and where the computer begins.
II
Infinity’s contrary arguments are unavailing. Before
the district court and on appeal, Infinity advanced its
reexamination interpretation—i.e., that the passive
link ends (and the computer begins) at the computer’s
port. But as the district court recognized, such an
interpretation contradicts Infinity’s distinction of
Perkins—in which Infinity called Perkins’s device 3 an
intervening apparatus even though it was internal to
the computer. Infinity, 2019 WL 5213250, at *1 (“Thus,
if the ‘passive link’ ends at a computer port and not at
the computer’s I/O bus, as Infinity now suggests,

15a
Perkins would include a ‘passive link,’ rendering the
patentee’s distinction from Perkins nugatory.”).
Infinity argues that the court misinterpreted its
statements distinguishing Perkins. According to
Infinity, the passive link is the physical cable spanning
the fax machine and the computer and Infinity’s
prosecution statements should be interpreted to mean
that the data flowing through the passive link, rather
than the passive link itself, proceeds uninterrupted to
the I/O bus. But “we hold patentees to the actual
arguments made, not the arguments that could have
been made” during prosecution. Tech. Props. Ltd. LLC
v. Huawei Techs. Co., 849 F.3d 1349, 1359 (Fed. Cir.
2017). And the Supreme Court has warned us against
“viewing matters post hoc” to “ascribe some meaning
to a patent’s claims.” Nautilus, 572 U.S. at 911–12, 134
S.Ct. 2120. Here, Infinity stated that the passive link
is the reason why its invention requires no intervening
apparatus. J.A. 2196 (“The Applicant creates a passive
link …. Therefore, the Applicant does not require any
intervening apparatus as does Perkins.”). To
distinguish Perkins’s internal-card embodiment, the
passive link could not be merely a cable that ends at
the computer’s port.
Infinity has also at various points relied on an
express definition of “passive link” that it presented to
the Patent Office. Infinity first offered this definition
in response to a rejection that came after Perkins was
withdrawn, and later again through its expert witness
during reexamination and before the Board.3 The
definition provides:
3 Infinity’s appeal to the Board concerned whether the ’278
application supports claims reciting digital-signal transmission.
J.A. 3281. In passing, the Board described Figures 2b–d of the
’811 patent as depicting a passive link—i.e., “the RJ-11 telephone
cable”—based on the definition that Infinity’s expert witness

16a
[A] “passive link” is one where the initiation of
data flow is activated from a set-up procedure
within the PC and/or the facsimile machine, and
said data is transferred, with no intervening
apparatus or signal interception by a processing
element or any active component, along the path
of an unbroken direct connection between the PC
and the facsimile machine, for purposes of
providing both scanning or printing data.
J.A. 1784. This is no help. According to this definition,
a passive link is “one” characterized by the properties
described. The definition, therefore, does not resolve
the point in question: the extent of the “link.”
Additionally, Infinity emphasizes that it submitted
“unrebutted expert testimony” to the district court. Yet
the testimony Infinity submitted merely states that
“passive link” needs no construction and, in the
alternative, that it should be construed according to
the unhelpful definition above. J.A. 2975–76. And, as
Oki Data notes, that testimony repeats the very same
statements made during reexamination that gave rise
to the inconsistency in the first place. Infinity’s
contradictory positions are plain from the patent
record. The district court therefore saw no need for
extrinsic evidence, and neither do we. See Teva, 789
F.3d at 1342 (“The internal coherence and context
assessment of the patent, and whether it conveys
claim meaning with reasonable certainty, are
questions of law.”).
We also reject Infinity’s argument that the district
court should not have held the claims indefinite based
on a “single statement.” E.g., Appellant’s Br. 50–53. As
proffered. J.A. 3284. The Board’s only mention of Perkins related
to Infinity’s prosecution argument that Perkins disclosed an
analog-only configuration. J.A. 3287.

17a
an initial matter, we disagree that the court did so. As
discussed above, Infinity repeatedly made the
distinction that was eventually successful in
overcoming Perkins. Moreover, as Oki Data points out,
a single contradictory statement was sufficient in
Teva. Indeed, we noted there that we hold patentees
even to erroneous prosecution statements. Teva, 789
F.3d at 1344.
Further, it is immaterial that Infinity also
distinguished Perkins on another ground—i.e., that
Perkins discloses an analog-only arrangement. See,
e.g., Andersen Corp. v. Fiber Composites, LLC, 474
F.3d 1361, 1374 (Fed. Cir. 2007) (“An applicant’s
invocation of multiple grounds for distinguishing a
prior art reference does not immunize each of them
from being used to construe the claim language.”).
Infinity admits that it made both distinctions during
prosecution. Reply Br. 20. And, for what it’s worth,
Infinity commented in an interview during
reexamination that “the examiner did not find the
analog versus digital signal argument persuasive.”
Reply Br. 20; J.A. 1992.
We also disagree that the presence of the term
“computer interface” in the claim at the time of the
Perkins distinction somehow harmonizes Infinity’s
inconsistent statements. As the district court
explained, the claim at the time also recited “a passive
link … from the facsimile machine to the computer.”
Infinity, 2019 WL 5213250, at *2 (alteration in
original). And Infinity “did not make any mention of,
let alone place any material significance on, the phrase
‘computer interface’ in its distinction of the claimed
invention’s ‘passive link’ from the connection in
Perkins.” Id.
Last, Infinity argues that “computer” is a familiar
term with a well-understood ordinary meaning. We

18a
recognize that, in a vacuum, it might seem odd to hold
“computer” indefinite. We also recognize that the
specification identifies examples of commercial
computers, such as an “Apple Macintosh” and an “IBM
PC.” ’811 patent col. 4 ll. 64–66. Yet the indefiniteness
here does not reside in the term “passive link” or
“computer” on its own but rather in the relationship
between the two in the context of these claims.4 And
any resulting strangeness stems from Infinity’s own
statements. See, e.g., J.A. 2201 (“[E]ven though
circuitry of device 3 is placed in a card within the box
containing the computer[,] it should be regarded as a
peripheral device to the computer.”). As already noted,
Infinity agrees that one of ordinary skill would need to
be reasonably certain where the passive link ends and
where the computer begins. There is no reasonable
certainty as to that boundary. We therefore agree with
the district court that both terms are indefinite.
III
We have considered Infinity’s remaining arguments
and find them unpersuasive. The district court
correctly concluded that the asserted claims are
invalid for indefiniteness. We affirm.
AFFIRMED

4 See Markman Tr. 49:19–25, J.A. 3843 (Mr. Labgold: “[W]e all
know what a computer is. That is not what the issue is. It’s the
way that it is being used and how it has been differentiated with
regard to the passive link.”).

19a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
C.A. No. 18-463-LPS
————
INFINITY COMPUTER PRODUCTS, INC.,
Plaintiff,
v.
OKI DATA AMERICAS, INC.,
Defendant.
————
Signed 10/16/2019
————
MEMORANDUM ORDER
————
LEONARD P. STARK, UNITED STATES DISTRICT
JUDGE
At Wilmington this 16th day of October, 2019:
Pending before the Court is Plaintiff Infinity
Computer Products, Inc.’s (“Infinity”) motion for
reargument or reconsideration of the Court’s holding,
in its June 10, 2019 claim construction Opinion (D.I.
172) and Order (D.I. 173), that the claim terms
“passive link” and “computer” are indefinite. (D.I. 177)
Having reviewed the parties’ submissions (D.I. 178,
184, 186-1 Ex. A), IT IS HEREBY ORDERED that
Infinity’s motion for reconsideration (D.I. 177) is
DENIED for the following reasons:

20a
1. Pursuant to Local Rule 7.1.5, a motion for
reconsideration should be granted only “sparingly.”
The decision to grant such a motion lies squarely
within the discretion of the district court. See Dentsply
Int’l, Inc. v. Kerr Mfg. Co., 42 F. Supp. 2d 385, 419 (D.
Del. 1999); Brambles USA, Inc. v. Blocker, 735 F.
Supp. 1239, 1241 (D. Del. 1990). These types of
motions are granted only if the Court has patently
misunderstood a party, made a decision outside the
adversarial issues presented by the parties, or made
an error not of reasoning but of apprehension. See
Schering Corp. v. Amgen, Inc., 25 F. Supp. 2d 293, 295
(D. Del. 1998); Brambles, 735 F. Supp. at 1241. A
motion for reconsideration may be granted only if the
movant can show at least one of the following: (i) there
has been an intervening change in controlling law; (ii)
the availability of new evidence not available when the
court made its decision; or (iii) there is a need to correct
a clear error of law or fact to prevent manifest
injustice. See Max’s Seafood Café by Lou-Ann, Inc. v.
Quinteros, 176 F.3d 669, 677 (3d Cir. 1999). However,
in no instance should reconsideration be granted if it
would not result in amendment of an order. See
Schering Corp., 25 F. Supp. 2d at 295.
2. Here, Infinity does not contend that there has
been an intervening change in law or that new
evidence is available. (See generally D.I. 178)
Therefore, Infinity has the burden to demonstrate a
clear error of law or fact in the Court’s reasoning.
Infinity has not met its burden.
3. Infinity fails to show a clear error of law or fact
with respect to its first contention: that the Court’s
interpretation of the patentee’s September 26, 2002
Office Action Response (“Office Action Response”) is
incorrect. (See id. at 2-6) After a review of that Office
Action Response, the Court concluded that the

21a
patentee had, in distinguishing a prior art reference
(U.S. Patent No. 5,452,106 to Perkins), taken the
position that the patentee’s claimed “passive link” was
passive from a fax machine to a computer’s
input/output (I/O) bus. (D.I. 172 at 8-9) Infinity now
argues that the Court’s conclusion was in error; to
Infinity, the patentee characterized the passive link as
ending at a computer port. (See D.I. 178 at 3-4) (“[T]he
passive link spans the facsimile machine to the
computer . . . and the computer begins at the RS 232
port . . . .”) The Court is unpersuaded. For reasons
explained at length in the Court’s claim construction
opinion (D.I. 172 at 8-11), Infinity’s characterization of
the patentee’s argument is simply inconsistent with
the Office Action Response itself, which repeatedly
mentions the “I/O Bus” as the endpoint of the link
between the “facsimile transceiver” and the
“computer.”1 (See D.I. 148-29 at 15 (Infinity37915))
Moreover, Infinity’s position that the “passive link”
ends at a computer port would not serve to distinguish
Perkins. As the patentee noted (see id.), Perkins
discloses embodiments in which a “facsimile device 3,”
which sits between a fax machine and a computer I/O
bus, can be placed inside a computer, such that a fax
machine is connected to the device via a port on the
computer. (See Perkins, 3:59-68, 9:24-32) Thus, if the
“passive link” ends at a computer port and not at the
computer’s I/O bus, as Infinity now suggests, Perkins
1 Infinity argues that the Court “conflat[es] the discussion of
the data flow which permissibly continues past the passive link
connection to the I/O bus – and potentially on to the CPU – with
the passive link’s endpoint.” (D.I. 178 at 4) (emphasis in original)
To the extent that the Court does so, it is because the patentee
did the same in the Office Action Response. See Tech. Properties
Ltd. LLC v. Huawei Techs. Co., 849 F.3d 1349, 1359 (Fed. Cir.
2017) (noting that scope of patent disclaimer is commensurate
with “actual arguments made”).

22a
would include a “passive link,” rendering the
patentee’s distinction from Perkins nugatory. See
Amazon.com, Inc. v. Barnesandnoble.com, Inc., 239
F.3d 1343, 1351 (Fed. Cir. 2001) (“A patent may not,
like a ‘nose of wax,’ be twisted one way to avoid
anticipation and another to find infringement.”).
4. Infinity also fails to demonstrate that the Court
made a clear error of law or fact with respect to
Infinity’s second contention: that the discussion in the
Office Action Response is inapposite to the claims at
issue in this case, as the Response concerned a
different version of the claims.2 (See D.I. 178 at 6-9)
Infinity contends that claim 27, as it existed at the
time of the Office Action Response, had an “additional
requirement” over the current claims: “that the
endpoint of the passive link lead directly to the
‘computer interface.’” (Id. at 8) To Infinity, this
requirement renders the Office Action Response’s
distinction from Perkins inapplicable to the
interpretation of the asserted claims, which do not
recite a “computer interface” but instead recite a
“passive link” that extends to a “computer.” (Id. at 8-9)
Infinity’s argument is unpersuasive. Although Claim
27 recites sending data through a “passive link” to a
“computer interface,” it also recites “a passive link . . .
from the facsimile machine to the computer,” which is
essentially the same limitation as appears in the
asserted claims. (See D.I. 148-29 at 20 (Infinity37920))
Moreover, the patentee in the Office Action Response
did not make any mention of, let alone place any
material significance on, the phrase “computer
interface” in its distinction of the claimed invention’s
2 The Court notes that Infinity did not raise this argument in
its original briefing (see generally D.I. 149, 159), and first
mentioned it during the claim construction hearing (Tr. at 63-66,
76-77). The Court will nevertheless consider the argument.

23a
“passive link” from the connection in Perkins. (See id.
at 15) Therefore, a person of ordinary skill would find
the patentee’s discussion of the endpoint of the
“passive link” in the Office Action Response to indicate
the endpoint of the “passive link” in the asserted
claims. See Fonar Corp. v. Johnson & Johnson, 821
F.2d 627, 632 (Fed. Cir. 1987) (holding that meaning
of claim term must be consistent throughout patent);
see also Acromed Corp. v. Sofamor Danek Grp., Inc.,
253 F.3d 1371, 1382 (Fed. Cir. 2001); Tr. at 76-77
(Infinity agreeing that “a [POSA] can, and should, rely
on” “any discussion in the prosecution” of “passive
link,” as long as Patent Office agrees with discussion).
5. Infinity’s third and final contention – that the
Court applied the wrong standard for patent
disclaimer – also lacks merit. (See D.I. 178 at 9-10)
Infinity seems to find a conflict between “the
proposition that surrender can exceed that which is
required by the prior art” (which Infinity contends the
Court adopted) and the standard that disavowal must
be “clear and unmistakable” (which Infinity contends
the Court did not). (Id.) Contrary to Infinity’s
contention, these two points of law are not in conflict
here; the patentee’s distinction from Perkins on the
basis of the claimed “passive link” was not ambiguous
or “amenable to multiple reasonable interpretations.”
(See id. at 10) Instead, in the Office Action Response,
the patentee took the clear and unmistakable position
that the claimed “passive link” extends from a fax
machine to the I/O bus of a computer. Even if the
alternative distinctions from Perkins that Infinity has
made in this litigation (see id. at 2-9) were persuasive
(they are not), Infinity cannot negate the impact of the
patentee’s clear and unmistakable position during
prosecution. See Tech Properties Ltd. v. Huawei Techs.
Co., 849 F.3d 1349 (Fed. Cir. 2017).

24a
6. For these reasons, the Court denies Infinity’s
motion for reconsideration of the Court’s holding that
“passive link” and “computer”3 are indefinite.
/s/ Leonard P. Stark
HONORABLE LEONARD P. STARK
UNITED STATES DISTRICT COURT

3 Infinity does not provide any additional arguments with
respect to the Court’s finding that the term “computer” is
indefinite (D.I. 178 at 10), so Infinity’s motion with respect to that
term fails for the reasons explained above for “passive link.”

25a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
C.A. No. 18-463-LPS
————
INFINITY COMPUTER PRODUCTS, INC.,
Plaintiff,
v.
OKI DATA AMERICAS, INC.,
Defendant.
————
June 10, 2019
Wilmington, Delaware
————
MEMORANDUM OPINION
————
STARK, U.S. District Judge:
Plaintiff Infinity Computer Products, Inc.
(“Infinity”) sued Defendant Oki Data Americas, Inc.
(“Oki Data”), alleging that Oki Data infringes
Infinity’s U.S. Patent Nos. 6,894,811 (“the ’811
patent”), 7,489,423 (“the ’423 patent”), 8,040,574 (“the
’574 patent”), and 8,294,915 (“the ’915 patent”). (D.I. 1)
The asserted patents relate to systems for connecting
a fax machine to a computer so that the fax machine
can be used as a printer or scanner. (See ’811 patent,
Abstract) Oki Data makes devices that Infinity
contends infringe the patents. (D.I. 1 ¶¶ 17-20)

26a
Presently before the Court are the parties’ disputes
over the meaning of certain claim terms in the
asserted claims. The parties submitted claim
construction briefs. (D.I. 149, 151, 159, 162) Infinity
submitted a technology tutorial (D.I. 150), to which
Oki Data submitted objections (D.I. 161). The Court
held a claim construction hearing on February 4, 2019.
(See D.I. 170 (“Tr.”))
I.

LEGAL STANDARDS
A.

Claim Construction

The ultimate question of the proper construction of
a patent is a question of law. See Teva Pharm. USA,
Inc. v. Sandoz, Inc., 135 S. Ct. 831, 837 (2015) (citing
Markman v. Westview Instruments, Inc., 517 U.S. 370,
388-91 (1996)). “It is a bedrock principle of patent law
that the claims of a patent define the invention to
which the patentee is entitled the right to exclude.”
Phillips v. AWH Corp., 415 F.3d 1303, 1312 (Fed. Cir.
2005) (citation and internal quotation marks omitted).
“[T]here is no magic formula or catechism for
conducting claim construction.” Id. at 1324. Instead,
the court is free to attach the appropriate weight to
appropriate sources “in light of the statutes and
policies that inform patent law.” Id.
“[T]he words of a claim are generally given their
ordinary and customary meaning . . . . [which is] the
meaning that the term would have to a person of
ordinary skill in the art in question at the time of the
invention, i.e., as of the effective filing date of the
patent application.” Id. at 1312-13 (internal citations
and quotation marks omitted). “[T]he ordinary
meaning of a claim term is its meaning to the ordinary
artisan after reading the entire patent.” Id. at 1321
(internal quotation marks omitted). The patent
“specification is always highly relevant to the claim

27a
construction analysis. Usually, it is dispositive; it is
the single best guide to the meaning of a disputed
term.” Vitronics Corp. v. Conceptronic, Inc., 90 F.3d
1576, 1582 (Fed. Cir. 1996).
While “the claims themselves provide substantial
guidance as to the meaning of particular claim terms,”
the context of the surrounding words of the claim also
must be considered. Phillips, 415 F.3d at 1314.
Furthermore, “[o]ther claims of the patent in question,
both asserted and unasserted, can also be valuable
sources of enlightenment . . . . [b]ecause claim terms
are normally used consistently throughout the
patent.” Id. (internal citation omitted).
It is likewise true that “[d]ifferences among claims
can also be a useful guide . . . . For example, the
presence of a dependent claim that adds a particular
limitation gives rise to a presumption that the
limitation in question is not present in the
independent claim.” Id. at 1314-15 (internal citation
omitted). This “presumption is especially strong when
the limitation in dispute is the only meaningful
difference between an independent and dependent
claim, and one party is urging that the limitation in
the dependent claim should be read into the
independent claim.” SunRace Roots Enter. Co., Ltd. v.
SRAM Corp., 336 F.3d 1298, 1303 (Fed. Cir. 2003).
It is also possible that “the specification may reveal
a special definition given to a claim term by the
patentee that differs from the meaning it would
otherwise possess. In such cases, the inventor’s
lexicography governs.” Phillips, 415 F.3d at 1316. It
bears emphasis that “[e]ven when the specification
describes only a single embodiment, the claims of the
patent will not be read restrictively unless the
patentee has demonstrated a clear intention to limit
the claim scope using words or expressions of manifest

28a
exclusion or restriction.” Hill-Rom Servs., Inc. v.
Stryker Corp., 755 F.3d 1367, 1372 (Fed. Cir. 2014)
(quoting Liebel-Flarsheim Co. v. Medrad, Inc., 358
F.3d 898, 906 (Fed. Cir. 2004)) (alteration in original)
(internal quotation marks omitted).
In addition to the specification, a court “should also
consider the patent’s prosecution history, if it is in
evidence.” Markman v. Westview Instruments, Inc., 52
F.3d 967, 980 (Fed. Cir. 1995), aff’d, 517 U.S. 370
(1996). The prosecution history, which is “intrinsic
evidence,” “consists of the complete record of the
proceedings before the [Patent and Trademark Office]
and includes the prior art cited during the
examination of the patent.” Phillips, 415 F.3d at 1317.
“[T]he prosecution history can often inform the
meaning of the claim language by demonstrating how
the inventor understood the invention and whether
the inventor limited the invention in the course of
prosecution, making the claim scope narrower than it
would otherwise be.” Id.
“In some cases, . . . the district court will need to look
beyond the patent’s intrinsic evidence and to consult
extrinsic evidence in order to understand, for example,
the background science or the meaning of a term in the
relevant art during the relevant time period.” Teva,
135 S. Ct. at 841. “Extrinsic evidence consists of all
evidence external to the patent and prosecution
history, including expert and inventor testimony,
dictionaries, and learned treatises.” Markman, 52 F.3d
at 980. For instance, technical dictionaries can assist
the court in determining the meaning of a term to
those of skill in the relevant art because such
dictionaries “endeavor to collect the accepted
meanings of terms used in various fields of science and
technology.” Phillips, 415 F.3d at 1318. In addition,
expert testimony can be useful “to ensure that the

29a
court’s understanding of the technical aspects of the
patent is consistent with that of a person of skill in the
art, or to establish that a particular term in the patent
or the prior art has a particular meaning in the
pertinent field.” Id. Nonetheless, courts must not lose
sight of the fact that “expert reports and testimony
[are] generated at the time of and for the purpose of
litigation and thus can suffer from bias that is not
present in intrinsic evidence.” Id. Overall, while
extrinsic evidence “may be useful to the court,” it is
“less reliable” than intrinsic evidence, and its
consideration “is unlikely to result in a reliable
interpretation of patent claim scope unless considered
in the context of the intrinsic evidence.” Id. at 1318-19.
Where the intrinsic record unambiguously describes
the scope of the patented invention, reliance on any
extrinsic evidence is improper. See Pitney Bowes, Inc.
v. Hewlett-Packard Co., 182 F.3d 1298, 1308 (Fed. Cir.
1999) (citing Vitronics, 90 F.3d at 1583).
Finally, “[t]he construction that stays true to the
claim language and most naturally aligns with the
patent’s description of the invention will be, in the end,
the correct construction.” Renishaw PLC v. Marposs
Societa’ per Azioni, 158 F.3d 1243, 1250 (Fed. Cir.
1998). It follows that “a claim interpretation that
would exclude the inventor’s device is rarely the
correct interpretation.” Osram GmbH v. Int’l Trade
Comm’n, 505 F.3d 1351, 1358 (Fed. Cir. 2007) (quoting
Modine Mfg. Co. v. U.S. Int’l Trade Comm’n, 75 F.3d
1545, 1550 (Fed. Cir. 1996)).
B.

Indefiniteness

A patent claim is indefinite if, “viewed in light of the
specification and prosecution history, [it fails to]
inform those skilled in the art about the scope of the
invention with reasonable certainty.” Nautilus, Inc. v.
Biosig Instruments, Inc., 134 S. Ct. 2120, 2129 (2014).

30a
A claim may be indefinite if the patent does not convey
with reasonable certainty how to measure a claimed
feature. See Teva Pharm. USA, Inc. v. Sandoz, Inc.,
789 F.3d 1335, 1341 (Fed. Cir. 2015). But “[i]f such an
understanding of how to measure the claimed [feature]
was within the scope of knowledge possessed by one of
ordinary skill in the art, there is no requirement for
the specification to identify a particular measurement
technique.” Ethicon Endo–Surgery, Inc. v. Covidien,
Inc., 796 F.3d 1312, 1319 (Fed. Cir. 2015).
II.

CONSTRUCTION OF DISPUTED TERMS
A.

“facsimile machine” and “fax machine”1

Infinity
No construction necessary
or
“a device that is capable of sending and receiving a fax,
including associated scan and print functionality”
Oki Data
“a standard facsimile machine”
or
“a conventional facsimile machine”
Court
“a device that is capable of sending and receiving a
fax over a phone line and includes associated scan
and print functionality”
The parties agree that a “fax machine” or “facsimile
machine” must be capable of sending and receiving a
fax over a phone line. (Tr. 11, 35 (Infinity: “in our view,
I think a person of ordinary skill in the art would
1 The terms “facsimile machine” or “fax machine” appear in
claims 1, 2, 4, 6, 7, and 18-20 of the ’811 patent, claims 1-4 and 6
of the ’423 patent, claims 1, 2, 4, 5, 7, and 8 of the ’574 patent, and
claims 1, 6-9, 14, and 15 of the ’915 patent.

31a
understand that a fax machine has a phone line
sending capability”); id. at 17 (Oki Data: “fax
machine . . . would normally only communicate with
the outside world through a telephone line”))
The parties’ central dispute regarding this term is
whether, as Oki Data contends (D.I. 151 at 10-14), the
“fax machine” and “facsimile machine”2 must be
standard or conventional, or whether, as Infinity
contends (D.I. 149 at 13-16), the terms may include
non-standard and non-conventional machines.
The Court agrees with Infinity because the plain
meaning of “fax machine” does not exclude nonstandard machines, and the specification further
supports this broad construction. Generally, a
construction should depart from plain and ordinary
meaning only when a patentee acts as its own
lexicographer or disavows claim scope during
prosecution. See Poly-Am, L.P. v. API Indus., Inc., 839
F.3d 1131, 1136 (Fed. Cir. 2016). To narrow the scope
of an otherwise broad term, the specification must
demonstrate a “clear intention . . . using words or
expressions of manifest exclusion or restriction.” HillRom, 755 F.3d at 1372. Here, the specification does not
show any clear intention to require a fax machine to
be standard or conventional. To the contrary, Figures
2c, 2f, and 2h show the inventive “interface circuit 10”
inside the fax machine. A fax machine including
interface circuit 10 would not be standard or
conventional. Such a fax machine would also be
excluded from the claims under Oki Data’s
construction, a result that is disfavored. See Broadcom
Corp. v. Emulex Corp., 732 F.3d 1325, 1333 (Fed. Cir.
2 The claims use “fax machine” and “facsimile machine”
interchangeably. For clarity, the Court will refer to both terms as
fax machines.

32a
2013) (“[A]n interpretation which excludes a disclosed
embodiment from the scope of the claim is rarely, if
ever, correct.”) (internal alterations and quotation
marks omitted).
The specification suggests that the use of a
conventional fax machine may be a preferred
embodiment (’811 patent, Abstract), and that a
“principal object” of the invention is to allow a
conventional fax machine to be used as a scanner or
printer using “a circuit of highly simplified design and
low cost” (id., 1:25-40). Still, nothing in the
specification establishes that the fax machine used in
the invention must be conventional. See Northrop
Grumman Corp. v. Intel Corp., 325 F.3d 1346, 1355
(Fed. Cir. 2003) (holding claims not limited to certain
context even though inventor conceived that invention
“would be used principally, if not exclusively,” in that
context, even when specification “refers repeatedly to
the advantages of the invention in that context”).
Oki Data contends that the patentee’s arguments
distinguishing U.S. Patent No. 5,598,533 to Yokota
(“Yokota”) limit the claims to conventional fax
machines. (D.I. 151 at 12-13) However, the patentee
merely argued that the claimed invention, unlike
Yokota, could be used with a standard fax machine.
(D.I. 148-10 Ex. 6 at 20) (distinguishing Yokota as
requiring “a complex memory and interrupt service
routine based interface between PC-like and Fax-like
components that were integrated into a single box”)

33a
B.

“passive link”3

Infinity
No construction necessary
or
“a link where the initiation of data flow is activated
from a setup procedure within the PC and/or the
facsimile machine, and the data is transferred, with
no intervening apparatus or signal interception by a
processing element or any active component, along
the path of an unbroken direct connection between
the PC and facsimile machine, for purposes of
providing scanning and/or printing data”
Oki Data
Indefinite
or
“a link where the initiation of data flow is activated
from a set-up procedure within the PC and/or the
facsimile machine, and said data is transferred, with
no intervening apparatus or signal interception by a
processing element or any active component, along
the path of an unbroken direct connection between
the PC and the facsimile machine”
Court
Indefinite
Each of the asserted independent claims recites
connecting a fax machine to a computer “via a passive
link.” Oki Data contends that “passive link” is
indefinite because, during prosecution of the ’811
patent, the patentee took contradictory positions as to
whether a passive link must extend (i) all the way to
3 The term “passive link” appears in claims 1, 6, 7, and 18-20 of
the ’811 patent, claims 1, 2, and 6 of the ’423 patent, claims 1, 7,
and 8 of the ’574 patent, and claims 1 and 9 of the ’915 patent.

34a
the I/O bus of a computer, or (ii) only to a port on the
housing of the computer, such that an “intervening
apparatus” (such as a fax modem) may be located
between the passive link and the I/O bus. (D.I. 151 at
15) Infinity agrees that in order for the Court not to
find “passive link” indefinite, one of skill in the art
would have to be reasonably certain as to where the
passive link ends and the computer begins (Tr. 61-62),
and further agrees that one of skill in the art would
look to the prosecution history in determining the
meaning of “passive link” (id. at 67).
During prosecution of the ’811 patent, the patentee
maintained that a passive link must extend to a
computer’s I/O bus without any intervening devices. In
response to an obviousness rejection, the patentee
distinguished U.S. Patent No. 5,452,106 to Perkins
(“Perkins”) on the basis that Perkins did not include a
passive link as recited by the claims. (D.I. 148-29 Ex.
25) Perkins discloses a system for connecting a fax
machine to a computer via a “facsimile device 3” that
connects to the fax machine via a phone line and to the
computer via a serial cable. (Perkins 3:59-68) The
facsimile device might be a standalone device or,
alternatively, be located on a card inside a computer.
(Id. 3:59-68,9:24-32) The patentee argued that Perkins
lacked a passive link because, in Perkins’
configuration, the “facsimile transmission never
enters the computer I/O bus until after it is
processed by device 3 . . . . Contrary to the above, [in
the claimed invention], the non-intercepted data
enters through the [serial] type connector port of
the computer and passes directly to the I/O
bus . . . providing a true non-intercepted signal
between the facsimile transceiver and the computer.”
(D.I. 148-29 Ex. 25 at 12) (emphasis added)

35a
However, during a later ex parte reexamination of
the ’811 patent, the patentee argued that a passive
link need only extend to a computer port without any
intervening device. During reexamination, the claims
were rejected as anticipated by U.S. Patent No.
5,900,947 to Kenmochi et al. (“Kenmochi”). (D.I. 151-5
Ex. 52 at 14) The patentee responded that Kenmochi
was not prior art because the effective priority date of
the claims was not the filing date of the ’056
application, but rather the filing date of the ’278
application, of which the ’056 application was a
continuation-in-part. (D.I. 148-18 Ex. 14 at 7) The
patentee argued that written description for the
“passive link” term could be found in Figures 2b, 2c,
and 2d, which were present in the ’278 application.
(Id.) Specifically, the patentee argued that passive link
in each of Figs. 2b-2d was the RJ-11 (phone line) cable
from the fax machine to the RJ-11 port on the
computer’s fax modem. (Id.) On this understanding, a
passive link need only be uninterrupted from the fax
machine to a port on the computer; it may be further
processed in the computer before it passes to the I/O
bus. (See id.; U.S. Patent App. No. 90/013,208, Final
Office Action dated 2/11/2015 at 20-25 (concluding,
based on patentee’s arguments, that “the claimed
‘passive link’ . . . constitutes the direct physical
connection between the facsimile machine and the
computer, regardless of whether the PC included
an internal modem”) (emphasis added).
Oki Data’s diagrams characterizing the prosecution
history, reproduced below, accurately depict the
understanding a person of ordinary skill would have
when reading the prosecution history.
(D.I. 151 at 8)

36a

(D.I. 151 at 8)
Oki Data has met its burden to show indefiniteness
by clear and convincing evidence. During prosecution,
the patentee distinguished prior art references by
characterizing “passive link” as requiring the link to
be entirely passive from the fax machine to the
computer’s I/O bus (in the patentee’s words, “a true
non-intercepted digital signal”). (D.I. 128-29 Ex. 25 at
12) This is depicted in the first diagram above. Then,
however, in order to claim the filing date of the ’278
application, the patentee characterized “passive link”
as only requiring the link to be passive from the fax
machine to a port on the computer. (D.I. 148-18 Ex. 14
at 7) This is depicted in the second diagram above.
Under the patentee’s first definition, the ’278
application lacks written description for a passive link
because the ’278 application does not disclose a link
that was passive until the computer’s I/O bus. Rather,

37a
under that definition, each embodiment disclosed in
the ’278 application includes an intervening
apparatus – a modem – between the fax machine and
the I/O bus. (See ’811 patent, Figs. 2b-2d) Conversely,
the patentee’s second definition, used to overcome the
written description rejection, would not distinguish
the Perkins patent because Perkins teaches
connecting a fax machine to a computer a via an
intervening device: a “facsimile device” inside the
computer.
(Perkins
9:24-32)
The
patentee’s
contentions regarding “passive link” have been
materially inconsistent. Hence, a person of ordinary
skill in the art would not be reasonably certain as to
which of the patentee’s two inconsistent definitions of
“passive link” is used in the claims, rendering the
claims indefinite. See Teva, 789 F.3d at 1345 (holding
claim term indefinite where patentee used two
inconsistent definitions of term during prosecution).
Infinity is not correct that the PTAB’s construction
during reexamination is “the definitive outcome of the
prosecution history.” (D.I. 159 at 5) The PTAB’s
construction of a claim term is not binding on a district
court. See Pfizer, Inc. v. Apotex, Inc., 480 F.3d 1348,
1359-60 (Fed. Cir. 2007). Moreover, the PTAB did not
consider the argument now before this Court. (See
generally D.I. 149-9 Ex. 3) The issue before the PTAB
was whether there was written description for both
analog and digital signals in the ’278 patent, and the
PTAB only rejected the contention that the patentee,
in distinguishing Perkins, limited the claims to “solely
analog transmission.” (D.I. 149-9 Ex. 3 at 12)
(emphasis in original). The PTAB’s conclusion is not
relevant to the question before this Court: whether the
patentee took inconsistent positions with respect to
the endpoint of the passive link.

38a
Infinity’s argument that its construction does not, in
fact, conflict with Perkins also misses the mark. (See
D.I. 159 at 7-9) Infinity’s post hoc distinction of
Perkins does not negate the patentee’s far more
specific arguments during prosecution. See Tech.
Properties, 849 F.3d at 1359 (holding that “the scope of
surrender is not limited to what is absolutely
necessary to avoid a prior art reference” but rather to
“the actual arguments made”). Moreover, Infinity’s
distinction fails on its merits: Perkins contemplates
the facsimile device being inside a PC and, so,
envisions embodiments with a direct, passive
connection between a fax machine and a PC port.
(Perkins, 9:24-32)
C.

“computer”4

Infinity
No construction necessary
Oki Data
Indefinite
Court
Indefinite
The parties’ dispute over “computer” mirrors their
dispute over “passive link.” Infinity contends that the
term is a “straightforward word” that is “readily
understood by a person of skill in the art, the Court
and jury without construction.” (D.I. 149 at 20) Oki
Data argues that “computer” is indefinite for
essentially the same reasons as it provided for “passive
link.” (D.I. 151 at 20)

4 The term “computer” appears in claims 1, 2, 4, 6, 7, and 18-20
of the ’811 patent, claims 1-4, and 6 of the ’423 patent, claims 1,
2, 4, 5, 7, and 8 of the ’574 patent, and claims 1 and 9 of the ’915
patent.

39a
The Court agrees with Oki Data for the same
reasons as provided above for “passive link.” Each
claim that recites “passive link” states that the passive
link connects a “facsimile machine” and a “computer.”
(See, e.g., ’811 patent. cl. 12) (reciting “transferring
data signals . . . via a passive link between the
facsimile machine and the computer”)) Given that the
two definitions for “passive link” vary in their end
point – one connects the fax machine to a port on a
computer, and another connects the fax machine to the
I/O bus of the computer – it follows that the scope of
“computer” changes depending on the definition.
Specifically, where the passive link ends at a computer
port, the computer begins at the port, and where the
passive link ends at the I/O bus, the computer begins
at the I/O bus. Accordingly, a person of ordinary skill
in the art would not be reasonably certain as to what
the claims mean by “computer.” See Teva, 789 F.3d at
1345.
Infinity provides several arguments as to why
“computer” is not indefinite, but none are persuasive.
(See D.I. 149 at 20-21; D.I. 159 at 10) Infinity points to
the statement in the specification that “[t]he PC . . .
may be any type of computer (including but not limited
to an Apple Macintosh, IBM PC, PCAT or PCXT).”
(D.I. 149 at 20) Infinity also notes that “computer” has
been construed or given its plain meaning in many
unrelated patents. (Id.) Infinity further points out that
defendants in related cases have not suggested that
“computer” is indefinite. (D.I. 159 at 10) Yet neither
the specification nor any case cited by Infinity resolves
the ambiguity created by the prosecution history of the
patents-in-suit. The fact that an indefiniteness
argument was not made by defendants in other cases
does not render the argument being made here less
meritorious.

40a
III. CONCLUSION
The Court will construe the disputed terms as
explained above. An appropriate Order follows.

41a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
C.A. No. 18-463-LPS
————
INFINITY COMPUTER PRODUCTS, INC.,
Plaintiff,
v.
OKI DATA AMERICAS, INC.,
Defendant.
————
ORDER
————
At Wilmington, this 10th day of June, 2019:
For the reasons set forth in the Memorandum
Opinion issued this date,
IT IS HEREBY ORDERED that the claim terms in
this case are construed as follows:
Court’s Construction
“a device that is capable of sending
“facsimile
and receiving a fax over a phone
machine”
line and includes associated scan
and print functionality”
“a device that is capable of sending
and receiving a fax over a phone
“fax machine”
line and includes associated scan
and print functionality”
“passive link” Indefinite
“computer”
Indefinite

Claim Term

42a
/s/ Leonard P. Stark
UNITED STATES DISTRICT JUDGE

43a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2020-1189
————
INFINITY COMPUTER PRODUCTS, INC.,
Plaintiff-Appellant,
v.
OKI DATA AMERICAS, INC.,
Defendant- Appellee.
————
Appeal from the United States District Court
for the District of Delaware in
No. 1:18-cv-00463-LPS,
Chief Judge Leonard P. Stark.
————
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
————
NOTE: This order is nonprecedential.
————
Before PROST, Chief Judge, NEWMAN, LOURIE,
CLEVENGER*, DYK, MOORE, O’MALLEY, REYNA,
WALLACH, TARANTO, CHEN, HUGHES, and STOLL,
Circuit Judges.
* Circuit Judge Clevenger participated only in the decision on
the petition for panel rehearing.

44a
————
PER CURIAM.
————
ORDER
————
Infinity Computer Products, Inc. filed a combined
petition for panel rehearing and rehearing en banc.
The petition was referred to the panel that heard the
appeal, and thereafter the petition for rehearing en
banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on April 21, 2021.
FOR THE COURT
April 14, 2021
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

